No. 19-852

In the Supreme Court of the United States
MAXELL, LTD.,
Petitioner,
v.
FANDANGO MEDIA, LLC,
Respondent.

CERTIFICATE OF SERVICE

I, Nicole A. Saharsky, counsel for Petitioner and a member of the Bar of this
Court, certify that on this 24th day of February, 2020, I caused three copies of this
Reply Brief for Petitioner to be served by overnight mail and electronic means on the
following:
Steven Lieberman
Rothwell, Figg, Ernst & Manbeck, P.C.
607 14th Street NW
Washington, DC 20005
(202) 783-6040
slieberman@rfem.com
I further certify that all parties required to be served have been served.

Nicole A. Saharsky

